                                                                ,

                                                                "



              AUDIT OF SSA'S FY 1999 FINANCIAL STATEMENTS 


                     INFORMATION SYSTEMS CONTROLS 


                           AUDIT REPORT NO. 0-16 


                               APRIL 25, 2000 





This report may contain proprietary information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without
permission of the Office of Inspector General.
                           u.s. SMALL BUSINESS ADMINISTRATION
                                 OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20416


                                                        AUDIT REPORT
                                                Issue Date: April 25, 2000
                                                Report Number: 0-16

                                                                             ,
TO: 	        Fred P. Hochberg
             Deputy Administrator                                            "
             Lawrence E. Barrett 

             Chief Information Officer 


             Joseph P. Loddo 

             Acting Chief Financial Officer 


             Bernard Kulik 

             Associate Administrator for 

             Disaster Assistance 

             c.~o\ A C-l'-·leJ

FROM: 	      Robert G. Seabrooks
             Assistant Inspector General for Auditing

SUBJECT: 	 Audit of SBA's Information Systems Controls

       Attached is the Independent Accountant's Audit Report on Information Systems
Controls, issued by Cotton & Co., LLP. As part of the audit of SBA's FY 1999 financial
statements, the auditors reviewed the general controls over SBA's financial
management systems to determine if those controls complied with various Federal
requirements.' General controls are the policies and procedures that apply to all or a
large segment of an entity's information systems to help ensure their proper operation.
They impact the overall effectiveness and security of computer operations, rather than
specific computer applications. Federal requirements for general controls include Office
of Management and Budget (OMS) Circular A-130, Security of Federal Automated
Information Resources and the Computer Security Act of 1987.

      The auditors concluded that SSA has made significant progress toward
implementing an agencywide systems security program, but that improvements are still
needed. The report describes, for example, how (1) security policies and plans need to
be established and implemented; (2) access controls need strengthening to reduce the
risk of unauthorized activities; (3) application development and change control
procedures need to be consistently applied; (4) programmers' access to operating
systems needs to be controlled and monitored; (5) segregation of duties controls need
improvement; and (6) disaster recovery plans need to be completed and tested. The
report also includes several recommendations for further implementing the agencywide
systems security program.

      The findings included in this report are the conclusions of the Office of Inspector
General's Auditing Division. The findings and recommendations are subject to
review, management decision, and corrective action by your office in accordance
with existing Agency procedures for audit follow-up and resolution.
                                                                        \

       We request that the Office of the Chief Information Officer provide the
management decision for the recommendations in this report. Please provide the
proposed management decision on the attached SBA Form 1824, Recommendation
Action Sheet, within 30 days. If you disagree with the recommendations, please
provide your reasons in writing.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Robert Hultberg
Director, Business Development Programs Group at (202) 205- (R:>IA <k 2.J

Attachments
                                    COl rON &COMPANY LLP 

                                                                 CERTIFIED PUBLIC              ACCOU~T.-\~TS
                                               333 N()RTH FAIRFAX STREET     •    SUITE -l-Ol          •    .-\U:XA:....IJRIA. VIRCI:--:IA 22314

                                                                    : l-.\,:, I. L,,'-.. '. ll'A <.:f·E (\.,[.\.\
l ';! \Kl.hH \'. \\··\R!l CPA CFE CISA                                \h i !\. i \\' (" .... i ' !! tJl.1. ( ; E                                   CHHERISF   L.   ~,   I(   ERA.      CPA
\\ ,m !i.'X H I, III:-'~' '.... (:I'A CCF.\\                          .......~I'k-4 ~ i -1' , : I t 'P-\ Cl,; .'.. \                                CULE1IE Y 'X·n.;"         I ....   CPA




                                                                           February 14,2000


                                                              COMPUTER CONTROLS
                                                      INDEPENDENT AUDIT OF FISCAL YEAR 1999
                                                             FINANCIAL STATEMENTS                                                              \

              Inspector General
              U.S. Small Business Administration

                      We have audited the U.S. Small Business Administration (SBA) principal fmancial statements as
              of September 30, 1999, and for the year then ended, and have issued our reports, dated February 14,2000,
              to SBA under separate cover. Those reports included our reports on SBA's internal control and
              compliance with laws and regulations.

                    The purpose of this letter is to communicate the details of the material weaknesses over SBA's
              computer controls.

                          This letter is intended solely for the infonnation and us of the SBA management.

                     We would like to express our appreciation to the SBA representatives who assisted us in 

              completing our audit They were always courteous, helpful, and professional. 


                                                                            Very truly yours.

                                                                            COTTON & COMPANY LLP



                                                                      By:        [rOtA; ot.(e]
                                                                            M'thew H.. lOMson,' OPA
                     AREAS FOR IMPROVEMENT IN COMPUTER CONTROLS 

                       FISCAL YEAR 1999 FINANCIAL STATEMENT AUDIT 

                           U.S. SMALL BUSINESS ADMINISTRATION 



         Cotton & Company LLP audited the Fiscal Year (FY) 1999 financial statements of the U.S. Small
BHsiness Administration (SBA). As part of that audit, we reviewed general controls over SBA's
information systems following guidance provided in the General Accounting Office's (GAO's) Federal
Information Systems Control Audit Manual (FISCAM). The purpose of this report is to communicate the
results of that review. Although weaknesses continued to exist, we commend the agency for the
substantial progress it has made toward implementing an agency-wide information systems security
program.                                                                            ,
                                                                                          "

BACKGROUND

          General controls are the policies and procedures that apply to all or a large segment of an entity's
  information systems and help ensure their proper operation. They impact the overall effectiveness and
, security of computer operations, rather than specific computer applications. GAO categorizes general
  controls as follows:

     •	        Entity-wide security program planning and management to provide a framework and
               continuing cycle of activity for managing risk, developing security policies, assigning
               responsibilities, and monitoring the adequacy of computer-related controls.

     •	        Access controls to limit or detect access to computer resources (data. program, equipment,
               and facilities), thereby protecting these resources against unauthorized modification, loss, and
               disclosure.

     •	        Application software development and program change controls to prevent 

               implementation of unauthorized programs or modifications to existing programs. 


     •	        System software controls to limit and monitor access to powerful programs and sensitive
               files that (I) control computer hardware and (2) secure applications supported by the system.

     •	        Segregation-of-duty controls to provide policies, procedures, and an organizational structure
               to prevent one individual from controlling key aspects of computer-related operations and
               thereby conducting unauthorized actions or gaining unauthorized access, to assets or records.

     •	        Service continuity controls to ensure that when unexpected events occur, critical operations
               continue without interruption or are promptly resumed. and critical and sensitive data are
               protected from destruction.

 SBA'S INFORMATION SYSTEMS ENVIRONMENT

         SBA's financial management information systems environment is decentralized. It is comprised
 of seven major components that are operated and maintained by all SBA offices and external contractors,
 as described below.

          •	       Loan Accounting System (LAS), a set of mainframe programs that process and 'maintain
                   accounting records and provide management reports for SBA's loan programs. The



                                                        1

               Office of the Chief Information Officer (OCIO) is responsible for developing and
               maintaining LAS system software and hardware. LAS is operated under contract with
               SBA by the Unisys Corporation at its Eagan, Minnesota, facility.

       •	       Automated Loan Control System (ALCS), a mini-computer system maintained and
                operated at each of SBA's four Disaster Area Offices. ALCS is used to track and process
                disaster loan applications. After loan approval,' it interfaces with LAS to update SBA' s
                loan records. The Office of Disaster Assistance (ODA) operates ALCS and is
                responsible for developing and maintaining system software and hardware.

       •	       Denver Finance Center Systems (DFq, a variety of specialized programs developed
                and maintained by the Office ofthe Chief Financial Officer (OCFO). These programs
                perform various functions such as (1) exchanging data with SBA's business partners, (2)
                processing and maintaining disbursement and collection records, and (3) interfacing with
                the LAS.

        •	      Federal Financial System (FFS), a mainframe financial management system used by all
                SBA offices for administrative accounting functions. The Department of Treasury's
                Financial Management Service (FMS), under a contract administered by OCFO, is
                responsible for software and hardware development and maintenance.

        •	      Local aud Wide-Area Networks (LANs and W ANs), communications systems
                maintained and operated by all the SBA offices to ( 1) provide gateways to LAS, ALCS,
                and FFS, (2) allow the offices to share files and communicate electronically, and (3)
                transfer data among systems. OCIO develops and disseminates guidance and procedures
                for the operation of these systems and periodically monitors to ensure compliance.

        •	      Surety Bond Guarantee (SBG) System, a client server system developed and
                maintained by OCIO that processes SBG program records and exchanges accounting
                information with FFS.

        •	      External Contractor Systems, various systems developed, maintained, and operated by
                commercial vendors, such as Colson, Inc., and ACS -GSG fonnerly known as CDSI , for
                processing and exchanging data related to loan servicing and fee collections.

FY 1999 AUDIT RESULTS

         In FY 1999, SBA took several key steps toward implementing an agencywide security program.
In response to FY 1998 recommendations, SBA established a senior-management group, provided .
funding to increase the security administration staff and obtain contractor support, and took the following
actions:

        •	      OCIO developed a system Certification & Accreditation (C&A) Handbook and a
                schedule for conducting C&A reviews, improved guidelines for software development
                and program change controls, and conducted disaster recovery tests for the Loan
                Accounting System.                                         .

        •	      OCFO conducted a risk assessment of FFS access privileges to reduce exposure and
                strengthen segregation-of-duty controls, and drafted system development and program
                change control procedures and a security plan.



                                                    2

       •	      ODA issued new procedures for conducting inventories of existing systems and
               applications, improved system development controls, and drafted. a security plan.

        Further work is needed, however, to fully implement the program to meet the requirements of
Office of Management and Budget (OMB) Circular A-l30, Security of Federal Automated Information
Resources; OMB Circular A-123. Management Accountability and Control; and OMB Circular A-t27.
Financial Management Systems. These circulars incorporate the information system security
requirements imposed by the Computer Security Act of 1987, Federal Managers' Financial Integrity Act,
Federal Financial Management Improvement Act of 1996. and Paperwork Reduction Act of 1995.

1. 	   Entity-Wide Security Program Planning and Management

        A comprehensive program for security planning and management is the foun~ion of an entity's
security controls and a reflection of senior management's commitment to addressing security risks. OMB
Circulars A-123 ~d A-l30 require agencies to (1) periodically assess potential risks and controls over
sensitive information systems, (2) develop security plans that include a security management structure
with clearly defined responsibilities, and (3) perform security awareness training, monitoring, and
reporting. Although the agency made significant progress, as of the end ofFY 1999, several basic
requirements had not been met. Specifically:

        •	      Formal agencywide security policies and procedures reflective of the current
                technological environment had not been established. A draft Standard Operating
                Procedure for information system security was in clearance, but not yet established as
                official agency policy.

        •	      Security plans with acceptable risk levels and rules of behavior for each system had not
                been developed. OCIO planned to develop security plans in conjunction with its C&A
                reviews.

        •	      Security awareness training was needed. [FD\A    e.l-.2.



                J.
2. 	    Access Controls

         OMB Circular A-130 requires agencies to safeguard assets, data, and hardware from unauthorized
activities; and assign personnel who have the necessary skills. knowledge, and training to carry out their
duties. Additionally, OMB Circular A-127 requires agencies to establish and implement controls over
data entry and transaction processing to ensure the validity of the information. The objectives of access
controls are to ensure that:

        •	      Users have only the access needed to perform their duties.

        •	      Access to sensitive resources such as security software programs is limited to those who
                need this access to perform their duties.

        •	      Employees are restricted from performing incompatible functions or functions beyond
                their responsibility.




                                                    3

       As summarized in the table below, SBA procedures did not ensure that SBA and contractor
personnel had only the access necessary to perform their duties.


       Access Control Requirement                                                  LASIFFS        J   ALCS
       Criteria and guidelines for granting users system access and privileges
       in the system were adequately defined.
       Users access to production data and software was adequately
       restricted.
       User passwords were encrypted.
       Security personnel access to users' passwords was restricted. I
       Security personnel monitored access rights and privileges.
                                                                                     [~O\A~. 2..J
       Users were automatically prompted to change passwords.
       Accounts were deactivated promptly upon termination of employment 

       or transfer to a position no longer requiring the account. 

       Users were restricted to one user 10. 

       Security personnel had an adequate understanding of system security 

       features. 

        Security personnel position descriptions specified required technical 

       .skills. 


           Nt A = Not Applicable 


           Other access control issues that we neted included: 


           •	       Of 1,819 user accounts in several systems at various offices, 199 users were no longer on
                    staff.




                     J. 



3. 	       Application Software Development and Program Change Control

         OMB Circulars A-127 and A-l30 require agencies to establish controls to ensure that newly
developed systems and program changes work as intended and meet user needs. Further, OMB Circular
A-127 requires that (I) systems be certified to ensure that adequate controls are built in; (2) systems
process information completely, accurately, and reliably; and (3) reliance can be placed on system
records.



I   SBA management is aware of the risks associated [Folt!, ~_ Z­

          J. Further, management contends that compl;nsating controls minimize agency exposure.
                                                         4
         During FY 1999, OCIO improved its software development and program change controls to
 provide reasonable assurance that only approved and tested LAS program changes were implemented.
 These controls were not in place, however, for other SBA systems. For example, ODA's ALCS controls
-did not ensure that all program changes were authorized, tested, and reviewed prior to placing the change
 into production. Additionally, procedures were not developed to ensure that server-based programs
 developed by and for various field and program offices followed system development and program
 change control procedures to ensure that the programs work as intended and provide accurate and reliable
 information for decision making and reporting purposes.

 4.       System Software Controls

         OMB Circular A-l30 requires that access to operating systems, system utilities, and production
 data and software be limited. It also requires that agencies monitor the access and use qf powerful
 operating system utilities. System software controls are intended to provide reasonable asSurance that
 operating-system-based security controls are not compromised and the system will not be impaired.

      CFb\A 6.. l.




                                                                                             J.
 5.       Segregation-oC-Duty Controls

         OMB Circular A-130 requires agencies to establish controls that allow personnel to perform
 assigned duties, but prevent or minimize exposures associated with overriding security and internal
 controls. To help reduce the potential for unauthorized activities, SBA has a "Rule of Two" policy that
 requires two individuals to sign certain documents and approve certain transaction or perform specific
 transactions within an application.

                                                     5
        The FY 1998 audit recommended that SBA enforce the "Rule of Two" by. assessing critical
system functions and access controls to identify incompatible duties. Cf"D\ A £,1<. Z.

                                                                                                          J
the following continued in FY 1999:

       •
                                                  j,




                        J. 	                                                            \.


         Lack of training was the primary reason that users were provided with system privileges that
nullified the "Rule of Two." Security administrators and supervisory personnel lacked understanding of
the activities provided
              \.    . 	 by certain privileges and were
                                                  .
                                                       not provided system-specific training ...

6. 	    Service Continuity Controls

         OMB Circular A-l30 requires agencies to perform risk assessments ofthe impact ofa local or
national disaster or significant disruption to its business openition and to develop disaster recovery and
business continuity plans to address risks and minimize impact. In July 1999, oero developed a disaster
recovery plan in place for LAS that adequately addresses National Institute of Standards and Technology
(NIST) requirements. The DFC and Disaster Area Offices had only partial plans in place, and the plans
had not been tested. SBA could also suffer significant business disruptions, because FMS did not have a
disaster recovery plan for FFS.                                                                .

CONCLUSION

        The control weaknesses in each of these six areas reduce assurance that:

        •	        Financial records are complete, accurate, and reliable.

        •	        Fraud or other unauthorized activities do not occur and remain undetected.

        •	        Only authorized users have access to SBA's systems.

        •	        Only authorized transactions are recorded.

        •	        Only authorized programs and programs changes are implemented.

        •	        Programs and data are adequately safeguarded from computer viruses.

        •	        Individuals cannot control multiple aspects of key operations, such as loan approval,
                  disbursement, and write-off.

        •	        Contingency plans exist to ensure continuous operations.

        •	        Critical and sensitive data are protected from destruction.


                                                       6

RECOMMENDATIONS

         We recommend that SBA continue its efforts toward implementing an agency-wide information
systems security program, and that it establish responsibilities and milestones to develop and implement
policies and procedures to:

        •	      Assign responsibility for security of each major application to a management official
                knowledgeable in the nature of the program supported by the application.

        •	      Provide annual security training for all SBA employees and contractor personnel on their
                information system security responsibilities.

        •	      Notify security administrators of changes in the employment status of all personnel and
                promptly eliminate unnecessary user accounts, and to notify security administrators in
                advance when personnel are being discharged under adverse conditions.

        •	      Develop a consol idated listing of all user accounts and privileges granted for all SBA
                employees and·contractor personnel.

        •	      Revise position descriptions for personnel with security administration responsibilities to
                include specific responsibilities, technical requirements, and appropriate performance
                measures in their annual performance plans.

        •	      Ensure the use ofOCIO-approved System Development Life Cycle standards and
                techniques for all new systems, system enhancements. and program changes.

        •	      Perform quality control for all test plans and results for new systems, system
                enhancements, and program changes to ensure that results are documented. the system
                operates as intended, and test-support documentation is retained..

        •	      Limit and monitor programmer access to operating systems, system utilities, application
                software, and production data.

        •	      Assess critical system functions and access controls to identify incompatible duties and
                enforce SBA's "Rule of Two."

        •	      Complete the agency's disaster recovery and business continuity plans and perform
                annual testing of major portions ofthe plans.

        •	      Obtain approval by senior management and program officials of security plans and risk
                assessments.

SBA MANAGEMENT COMMENTS

      SBA management agreed to address these recommendations and implement solutions to
improve infonnation systems controls. A copy of the response is provided as Attachment 2.




                                                    7

                                                                                                                  Attacbment 1


INFORMATION SYSTEMS CONTROLS REVIEW                                                                      SYSTEM

              GENERAL CONTROL CATEGORIES AND                                        LAS     ALeS       FFS     DFC         &      SBG
                SPECMC CONTROL TECHNIQUES                                                                                WAN

SECURITY PROGRAM, PLANNING AND MANAGEMENT




APPLICATION SOFIWARE DEVEWPMENT AND CHANGE
CONTROL
                                                                                     1         1
                                                                                     1         1




                                     and documented. 



SEGREGATION OF DUTIES CONTROLS 



                                                                 procedures and




                                                 establishment of emergency

                    for effective backup and offsite storage
                           software.
           contingency and '-'VLIU.I.lIWL)I and disaster recovery plans with hot­
site facilities and annual


LEGEND
1. Control in place and effective. 2. Control in place but not fully effective. 3.        Control not in place. 4. Control not tested.




                                                                       8

                                                                                        Attachment 2


                 u.s.   SMALL BUSINESS AOMINISTRATION
                          WASHINGTON, O.C. 20416




DATE:         APR 1 9 2000

TO:                      Robert G. Seabrooks, AlG / Auditing

FROM:                    Larry Barrett, Chief Information Officer (G'b\A (,y.,. LR J
                         Bernard Kulik. AA for Disaster Assistance C~Cl.A" e,.)(,. La
                         Joseph Loddo, Chief Financial Officer C~c:.\ A <..'l<-. ~:J

SUBJECT:                 Response to Draft "Audit of SBA;s Information System Controls"

         We have reviewed the Independent Auditor's FY 1999 draft report on Information
System Controls issued by Cotton & Co., LLP (Cotton) and we have worked together to provide
this response to the audit. We are pleased to note that Cotton's report recognized the progress
that was made by our three offices during FY 1999 on:

      1) the OCIO Certification and Accreditation review program and disaster recovery tests,
      2) OCFO review of FFS access privileges and a draft of system development and program
         change control procedures and a draft security plan; and
      3) ODAs new procedures for inventories of existing systems and application programs,
         improved system development controls and a draft security plan.

        We also note, however, that Cotton reported that further work is needed to meet federal
requirements for information system controls. Specifically, Cotton provided the attached
recommendations to improve SBA's information system controls. The SBA is committed to
addressing these recommendations during FY 2000 to remove this material internal control
weakness from Cotton's future audit reports.

        The I~formation Systems Control Committee that was formed last year will continue to
meet to address these recommendations and to implement solutions to improve our information
systems controls. As one of its actions, the committee will review and approve the
implementation of plans developed by our offices to attain these solutions. We continue to invite
the Office of the Inspector General to participate along with us to find workable solutions.

          We look forward to working together. along with the OIG, to address this important
Issue.



Attachment
                                                               Attachment 3




                               REPORT DISTRIBUTION

Recipient                                            .Copies

Associate Deputy Administrator for
 Management & Administration                           1

Associate Administrator for Field Operations           1

                                                        ,

                                                        \

Assistant Administrator
 Office of Congressional & Legislative Affairs         1

Associate Administrator
 Office of Financial Assistance                        1

General Counsel                                        2

General Accounting Office                              2
